APPENDIX

TABLE OF CONTENTS OF APPENDIX
(i) Court Orders

Page

Appendix A. Order of Ninth Circuit on appeal 12/24/2020

1-8

Appendix B. Trial Court Order

03/14/2018

9-27

Appendix C. Order on Rehearing

02/24/2021

28-29

Appendix D. 2:ll-cv-01109 ECF 76

06/18/2012

30-51

j

APPENDIX A

1

Case: 18-15633, 12/24/2020, ID: 11944702, DktEntry: 65-1, Page 1 of 7

NOT FOR PUBLICATION

FILED

UNITED STATES COURT OF APPEALS

DEC 24 2020
MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
ROSEMARY GARITY,
Plaintiff-Appellant,

No.

U.S. COURT OF APPEALS

18-15633

D.C. No.
2:1 l-cv-01109-APG-CWH

v.
APWU NATIONAL LABOR
ORGANIZATION,

MEMORANDUM*

Defendant-Appellee,
NEVADA POSTAL WORKERS UNION,
Intervenor.
Appeal from the United States District Court
for the District of Nevada
Andrew P. Gordon, District Judge, Presiding
Argued and Submitted November 20, 2020
Pasadena, California
Before: PAEZ and OWENS, Circuit Judges, and ENGLAND,** Senior District
Judge.
Rosemary Garity (“Garity”) appeals the district court’s grant of summary

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The Honorable Morrison C. England, Jr., Senior United States District
Judge for the Eastern District of California, sitting by designation.

2

Case: 18-15633, 12/24/2020, ID: 11944702, DktEntry: 65-1, Page2of7

judgement to Defendant American Postal Workers Union, AFL-CIO (“the
National”) on Garity’s claims for disparate treatment, failure to accommodate, and
retaliation in violation of the Americans with Disabilities Act (“ADA”), 42 U.S.C.
§ 12101, etseq. We have jurisdiction under 28 U.S.C. § 1291. Reviewing Je
novo, we affirm. Bamettv. Centoni, 31 F.3d 813, 815-16 (9thCir. 1994).
1. Garity originally filed suit against both American Postal Workers Union,
Local 7156 (“the Local”) and the National. When the Local dissolved, the district
court dismissed it from the suit, leaving the National as the sole defendant.
Although the Local no longer exists, Garity argues that the National is vicariously
liable for the Local’s violations of the ADA.1 There are two theories under which
the National can be liable for the Local’s wrongful actions. The district court
correctly held that Garity cannot prevail under either.
A national union can be liable for the actions of a local under common law

i

We are not persuaded that we should adopt the vicarious liability standard
advocated by Garity in her Supplemental Opening Brief. Garity also argues that
the National should be judicially estopped from denying that it is the Local’s
successor. Garity, however, did not raise this argument in the district court.
Generally, arguments not raised before the district court are waived on appeal. See
Manta v. Chertoff, 518 F.3d 1134,1144 (9th Cir. 2008). While there are narrow
exceptions to this practice, they do not apply to Garity’s judicial estoppel
argument. United States v. Flores-Montano, 424 F.3d 1044, 1047 (9th Cir. 2005)
(stating that a court may exercise its discretion to review newly presented issues
when there are exceptional circumstances, due to a change in law while appeal was
pending, or when the issue is a pure issue of law and the opposing party will suffer
no prejudice). As a result, this argument is waived.
2
3

Case: 18-15633, 12/24/2020, ID: 11944702, DktEntry: 65-1, Page 3 of 7

agency principles. Carbon Fuel Co. v. United Mine Workers ofAm., 444 U.S. 212,
216-17 (1979). In determining whether an agency relationship exists, both the
terms of the entities' governing documents and the “actual relationship” between
the entities are relevant. Laughon v. Inti All. Of Theatrical Stage Emps., Moving
Picture Technicians, Artists & Allied Crafts ofthe U.S. & Can., 248 F.3d 931,935
(9th Cir. 2001). The Local was not an agent of the National. The National’s
Constitution and Bylaws explicitly state that locals are “fully autonomous.”
Further, the now-dissolved Local had its own constitution and bylaws, governing
its day-to-day procedures and logistics. The “actual relationship” between the two
entities also confirms that the Local was autonomous and not an agent of the
National. The Local had its own bank account, appointed its own shop stewards,
and held its own elections without the National’s involvement.
Garity contends that the National acquiesced in the Local’s discriminatory
actions because Scoggins and Ybarra, National Business Agents (“NBAs”), gave
Poulos guidance for handling Garity’s grievances and failed to investigate several
of her complaints. Although the NBAs provided guidance to Poulos, there is no
evidence that they controlled or directed her decisions. Indeed, Poulos testified
that all decisions concerning Garity’s grievances were her own. Garity has not
presented sufficient evidence to raise a genuine factual dispute over the role of the
NBAs in the grievance process.

3
4

Case: 18-15633, 12/24/2020, ID: 11944702, DktEntry: 65-1, Page4of 7

Alternatively, a national can be held liable for the actions of a local if the
national "instigated, supported, ratified or encouraged the Local's activities ...
Moore v. Local Union 569 ofInt'l Bhd. ofElec. Workers, 989 F.2d 1534, 1543 (9th
Cir. 1993). Here, however, the record evidence at most shows that the National
had constructive knowledge of the Local’s actions. “[Constructive knowledge of
the Local's possibly illegal activity does not impose on the [National] a legal duty
to intervene.” Id. Even assuming that Garity complied with the National’s
complaint procedures, Garity does not identify any impermissible actions by the
National. Instead, she alleges actions by officers and members of the Local.
Poulos testified that she independently removed Garity as shop steward. And
Raydell Moore, a former member of the Local, retired from the National in 2000,
over eleven years prior to Garity’s lawsuit. The evidence does not show that any
of Moore’s alleged actions or inactions had anything to do with the National during
the relevant period. As the record shows, the NBAs acted without supervision
from the National.
Garity has not presented sufficient evidence to raise a genuine factual
dispute that either the Local was acting as an agent of the National, or that the
National instigated, ratified, or encouraged the Local’s alleged discriminatory
actions. On this record, the district court did not err in concluding that the National
cannot be held vicariously liable for the actions of the Local.

4
5

Case: 18-15633, 12/24/2020, ID: 11944702, DktEntry: 65-1, Page 5 of 7

2. The district court also properly granted summary judgment in favor of the
National on Garity’s ADA claims. Garity contends that the National discriminated
against her because of her disability, failed to accommodate her disabilities, and
retaliated against her for engaging in protected activity. To “establish a prima
facie case of discrimination under the ADA [die plaintiff] must show that she: (1)
is disabled; (2) is qualified; and (3) suffered an adverse employment action
because of her disability.” 42 U.S.C. § 12101, et seq.; see Smith v. Clark Cty. Sch.
Dist., 727 F.3d 950, 955 (9th Cir. 2013).
Garity’s disparate treatment claim fails at step three because she cannot
show either direct evidence of discrimination by the union or evidence that the
union treated her less favorably than non-disabled, similarly situated individuals.
See Beck v. United Food & Commercial Workers Union, Local 99, 506 F.3d 874,
882 (9th Cir. 2007). To the contrary, the National took steps to ensure that Garity
was provided with the grievance representatives that she wanted, and her
complaints related to actions by the United States Postal Service (“USPS”) or
actions by NBAs who were not agents of the National.
The prima facia elements of a failure to accommodate claim are similar to a
disparate treatment claim, except at step three, the employee must show that “[she]
is a qualified individual [who is] able to perform the essential functions of the job
with reasonable accommodation.” Allen v. Pac. Bell, 348 F.3d 1113,1114 (9th

5
6

Case: 18-15633, 12/24/2020, ID: 11944702, DktEntry: 65-1, Page 6 of 7

Cir. 2003). Garity’s failure to accommodate claim fails because she cannot show
that the National caused or attempted to cause the USPS to fail to provide a
reasonable accommodation. See 42 U.S.C. § 2000e-2(c)(3). Only USPS officers
participated in Garity’s accommodation hearing before the District Reasonable
Accommodation Committee (“DRAC”), and there is no evidence that the National
“prevented or obstructed” the USPS from providing her with an accommodation.
Instead, DRAC independently determined that no “reasonable accommodation”
was available to allow Garity to perform her essential job duties because her
requested accommodations would cause “undue hardship” to the USPS and/or
violate the CBA. Further, Garity provided no evidence that she requested the
National to address any accommodation issues.
“To establish a prima facie case of retaliation under the ADA, an employee
must show that: 1) [she] engaged in a protected activity; 2) suffered an adverse
employment action; and 3) there was a causal link between the two.” Pardi v.
Kaiser Found’ Hospitals, 389 F.3d 840, 849 (9th Cir. 2004). Garity’s claim fails
because she cannot satisfy the second and third elements. While Garity alleges
that several statements by Scoggins and certain events were retaliatory, she does
not articulate how these statements or events were intended to punish or discourage
her from pursuing ADA-protected rights. Further, the record evidence is
insufficient to attribute the alleged retaliatory statements and events to the

6
7

Case: 18-15633, 12/24/2020, ID: 11944702, DktEntry: 65-1, Page 7 of 7

National, as opposed to the USPS, NBAs, or the Local.
For the foregoing reasons, there is no genuine issue of material fact as to
whether the National took adverse actions against Garity because of her alleged
disability or participation in protected activity in violation of the ADA. The
district court correctly determined, as a matter of law, that the National was
entitled to summary judgment on Garity’s ADA claims.
3. Finally, Garity argues that the district court erred by dismissing the Local
and by not establishing which entity was the Local’s successor. Generally,
arguments that were not raised in the district court are waived. See Mantra, 518
F.3d at 1144. We have recognized three narrow exceptions to this general rule.
Flores-Montano, 424 F.3d at 1047. These exceptions, however, do not apply here.
As such, both arguments are waived.
AFFIRMED.

7
8

APPENDIX B

9

Case 2:ll-cv-01109-APG-CWH Document 209 Filed 03/14/18 Page 1 of 17

1

UNITED STATES DISTRICT COURT

2

DISTRICT OF NEVADA

3

***

4

ROSEMARY GARITY,

5
6
7
8
9

Plaintiff,
v.
APWU-AFL-CIO, et al.,

Case No. 2:1 l-cv-01109-APG-CWH
ORDER (1) GRANTING
DEFENDANT’S MOTION FOR
SUMMARY JUDGMENT; (2)
DENYING PLAINTIFF’S MOTION TO
STRIKE; AND (3) DENYING
DEFENDANT’S MOTION TO STRIKE

Defendants.
(ECFNos. 182,188,204)

10
11

In 2011, plaintiff Rosemary Garity sued defendants APWU National Labor Organization

12

(APWU) and its local affiliate, APWU Local #7156, for various causes of action under federal

13

and state law based on her experiences working for the United States Postal Service (USPS) at the

14

Pahrump post office. In 2012, the local dissolved and was dismissed from the case, leaving

15

APWU as the lone defendant. Seven years and two trips to the Ninth Circuit later, only three

16

claims remain: disparate treatment, failure to accommodate, and retaliation in violation of the

17

Americans with Disabilities Act (ADA), 42 U.S.C. § 12101, etseq.

18

APWU now moves for summary judgment, arguing that Garity cannot establish a prima

19

facie case for any of her claims. APWU contends that it is not liable for the actions of the local,

20

and that there is no evidence that any of the actions taken by the national union or its agents were

21

motivated by Garity’s alleged disability or protected activity. Garity responds that APWU took

22

adverse actions against her, primarily its inaction in response to actions by the local and USPS.

23

She also contends that APWU is liable for the actions of the local, and those actions (including

24

the handling of union grievances and disciplinary actions) were discriminatory and retaliatory

25

based on her disability and pursuit of her rights under the ADA.

26
27

The parties are familiar with the facts of the case and I will not repeat them here except
where necessary. The local union was not acting as an agent of APWU, nor did APWU instigate

28
10

Case 2:ll-cv-01109-APG-CWH Document 209 Filed 03/14/18 Page 2 of 17

1

or ratify the local’s actions such that APWU can be held vicariously liable for them. To the

2

extent any of the APWU’s actions can be understood as adverse, Garity has not shown that they

3

were motivated by her disability or protected activity. Therefore, I grant summary judgment to

4

APWU on all of Garity’s claims. I also deny both parties’ motions to strike each other’s filings.

5
6

I.

ANALYSIS
A. Garity’s Motion to Strike (EOF No. 188)

7

Before filing her opposition to APWU’s motion for summary judgment, Garity moved to

8

strike the summary judgment motion and objected to APWU’s evidence. This motion primarily

9

consists of arguments that belong in an opposition. ECF No. 188. I granted Garity the ability to

10

file an opposition 15 pages over the typical page limit. ECF No. 185. She did not request, nor did

11

she receive, permission to file what is essentially a second brief in opposition to the defendant’s

12

motion. Garity’s motion, which goes nearly line-by-line through the motion for summary

13

judgment, primarily contains legal argument about issues in the case and disputes as to APWU’s

14

interpretation of the facts.

15

Under Federal Rule of Civil Procedure 12(f), I “may strike from a pleading an insufficient

16

defense or any redundant, immaterial, impertinent, or scandalous matter.” Under Rule 56(c)(2), a

17

party “may object that the material cited to support or dispute a fact cannot be presented in a form

18

that would be admissible in evidence.” Even considering the arguments that might be properly

19

brought in this motion, I do not find them convincing.

20

Garity does not argue that the motion for summary judgment is redundant, immaterial,

21

impertinent, or scandalous. She first argues that any testimony relied on by APWU that

22

contradicts the testimony of APWU’s Rule 30(b)(6) witness must be stricken, relying on the sham

23

affidavit rule. Under that rule, “a party cannot create an issue of fact by an affidavit contradicting

24

his prior deposition testimony.” Kennedy v. AlliedMut. Ins. Co., 952 F.2d 262,266 (9th Cir.

25

1991). However, Garity does not identify any contradictory testimony that should be stricken,

26

instead pointing to legal argument and citations to documents in the record, none of which Garity

27

argues were not produced or are inadmissible in any other way. Moreover, the contradictions that

28
Page 2 of 17

11

Case 2:ll-cv-01109-APG-CWH Document 209 Filed 03/14/18 Page 3 of 17

1

Garity believes exist between the motion and the deposition testimony appear to be primarily a

2

function of her presenting to the court out-of-context portions of the transcript or her

3

interpretation of the testimony. This is not sufficient reason to strike eveiy part of the summary

4

judgment motion that Garity believes is not supported by the deposition testimony.

5

Garity next argues that APWU’s counsel should be sanctioned under 28 U.S.C. § 1927 for

6

misrepresenting facts and misstating the law. Under that statute, attorneys “who so multiply the

7

proceedings in any case unreasonably and vexatiously” may be liable for costs and fees. To the

8

extent that Garity contends APWU’s counsel has perpetrated a fraud on the court, she must show

9

“an unconscionable plan or scheme which is designed to improperly influence the court in its

10

decision.” United States v. Sierra Pac. Indus., Inc., 862 F.3d 1157, 1168 (9th Cir. 2017). Garity

11

produces no evidence (nor does she argue) that APWU’s counsel has unreasonably or vexatiously

12

multiplied the proceedings. Nor does she produce evidence of a plan or scheme to defraud the

13

court. Instead, she disputes APWU’s interpretation of the evidence and applicable law. These

14

are arguments that belong in her opposition and are insufficient to impose sanctions or find fraud

15

on the court.

16

Finally, Garity argues that certain documents cited by APWU, including a workplace

17

climate survey and a letter recounting a USPS meeting about possible workplace

18

accommodations, include hearsay and should be stricken. I do not rely on these documents for

19

my rulings, so striking them is unnecessary. Thus, Garity’s evidentiary objections are unavailing,

20

and I deny her motion.

21
22

B. APWU’s Motion for Summary Judgment (EOF No. 182)
Summary judgment is appropriate if the pleadings, discovery responses, and affidavits

23

demonstrate “there is no genuine dispute as to any material fact and the movant is entitled to

24

judgment as a matter of law.” Fed. R. Civ. P. 56(a), (c). A fact is material if it “might affect the

25

outcome of the suit under the governing law.” Anderson v. Liberty Lobby, Inc., All U.S. 242,248

26

(1986). An issue is genuine if “the evidence is such that a reasonable jury could return a verdict

27

for the nonmoving party.” Id.

28
Page 3 of 17

12

Case 2:ll-cv-01109-APG-CWH Document 209 Filed 03/14/18 Page 4 of 17

1

The party seeking summary judgment bears the initial burden of informing the court of the

2

basis for its motion and identifying those portions of the record that demonstrate the absence of a

3

genuine issue of material fact. Celotex Corp. v. Catrett, 477 U.S. 317, 323 (1986). The burden

4

then shifts to the non-moving party to set forth specific facts demonstrating there is a genuine

5

issue of material fact for trial. Fairbank v. Wunderman Cato Johnson, 212 F.3d 528, 531 (9th Cir.

6

2000). I view the evidence and draw reasonable inferences in the light most favorable to the non­

7

moving party. James River Ins. Co. v. Hebert Schenck, P. C., 523 F.3d 915, 920 (9th Cir. 2008).

8

1. National APWU’s Liability for the Actions of the Local Union

9

Garity claims that the national is responsible for the actions of its local affiliate. APWU

10

responds that there is no evidence showing that the local acted as the national’s agent or that die

11

national instigated, supported, ratified, or encouraged the local’s alleged violations of the ADA

12

such that the national could be liable for these violations.

13

APWU can be held liable for alleged violations of the ADA by the local union in two

14

ways. The first is under common law agency principles. Carbon Fuel Co. v. United Mine

15

Workers ofAm., 444 U.S. 212, 216-17 (1979). “[I]f the local engages in illegal conduct in

16

furtherance of its role as an agent of the [national], the [national] will be liable for the local’s

17

actions.” Laughon v. Int'l All. of Theatrical Stage Emps., Moving Picture Technicians, Artists &

18

Allied Crafts ofthe U.S. & Can., 248 F.3d 931, 935 (9th Cir. 2001). On the other hand, “if the

19

local exercises considerable autonomy in conducting its affairs, it cannot be regarded as an agent

20

of the [national], and the [national] accordingly cannot be held liable under an agency theory for

21

the local’s actions.” Id. In determining whether an agency relationship exists, I look both to the

22

national’s constitution as well as the actual relationship between the local and the national. Id.

23

“To analyze the actual relationship, [I] consider the local’s election of its own officers, ability to

24

hire and fire its own employees, maintenance of its own treasury and independent conduct of its

25

daily business as determinative factors.” Id

26
27

The national also may be liable for the actions of the local if the national “instigated,
supported, ratified or encouraged the Local’s activities ...” Moore v. Local Union 569 ofInt'l

28
Page 4 of 17

13

Case 2:ll-cv-01109-APG-CWH Document 209 Filed 03/14/18 Page 5 of 17

1

Bhd ofElec. Workers, 989 F.2d 1534,1543 (9th Cir. 1993). “[Constructive knowledge of the

2

Local’s possibly illegal activity does not impose on the [national] a legal duty to intervene.” Id.
a. Law ofthe Case

3
4

Garity points out that, in ruling on an earlier motion to dismiss, Judge Pro found that she

5

had sufficiently pleaded facts showing APWU was vicariously liable for the local’s actions. i

6

ECF No. 76 at 21. Garity argues that APWU’s vicarious liability is thus no longer in issue.

7

APWU responds that Judge Pro’s finding meant only that Garity survived the motion to dismiss,

8

not that she had proven APWU’s vicarious liability as a matter of law. I agree.

9

The law of the case doctrine “generally precludes a court from reconsidering an issue

10

decided previously by the same court or by a higher court in the identical case.” Hall v. City of

11

L.A., 697 F.3d 1059,1067 (9th Cir. 2012). “The issue in question must have been decided

12

explicitly or by necessary implication in the previous disposition,” and application of the doctrine

13

is discretionary. Id

14

Judge Pro found that Garity pleaded sufficient facts that, if they were taken as true, would

15

prove APWU was vicariously liable for the actions of the local. See Wyler Summit P ’ship v.

16

Turner Broad. Sys., Inc., 135 F.3d 658, 661 (9th Cir. 1998) (“On a motion to dismiss, all well-

17

pleaded allegations of material fact are taken as true and construed in a light most favorable to the

18

non-moving party.”). He did not find that Garity had proven APWU was vicariously liable for

19

the local’s actions, but rather that claims based on vicarious liability survived dismissal at that

20

stage of the case. In a subsequent order, Judge Pro dismissed Garity’s ADA claims based on

21

issue preclusion. ECF No. 126. Garity appealed this order, and the Ninth Circuit reversed and

22

remanded. Garity v. APWUNat’l Labor Org., 828 F.3d 848 (9th Cir. 2016). In its opinion, the

23

Ninth Circuit specifically stated that it was not addressing the merits of Garity’s claims. Id. at

24

25
26
27

28

i

This argument is nearly identical to an argument Garity makes in her motion to strike.
See ECF No. 188 at 2-7. It is better addressed here in the context of her opposition to the motion
for summary judgment.
Page 5 of 17

14

Case 2:ll-cv-01109-APG-CWH Document 209 Filed 03/14/18 Page 6 of 17

1

864. Thus, the issue of whether APWU is vicariously liable for the local’s actions has not been

2

decided either by the district or appellate court.2 I am not precluded from considering the issue.

3

b. Common Law Agency

4

The APWU constitution states that each “chartered subordinate body shall be fully

5

autonomous.” ECF No. 182-27 at 2. The now-dissolved local had its own constitution and

6

bylaws, which governed membership, elections, meetings, fees, and fiscal policy. ECF No. 182-

7

13. In addition, minutes from the local’s meetings show it governed its own affairs without

8

oversight from the national. ECF No. 182-12. The local also decided on its own to dissolve

9

without being forced to do so by the national. ECF No. 182-33. This evidence tends to show that

10

both as a matter of the union’s constitution and the actual relationship between the local and

11

national, the local exercised considerable autonomy.

12

Most of Garity’s arguments in response, including that the national exerted a high degree

13

of control over the local and that the national was involved in the local’s dissolution, are not

14

supported by evidence in the record. She points to the fact that National Business Agents

15

(NBAs)—who are officers of the national—have jurisdiction over grievances at the third stage of

16

the process and that certain NBAs were involved to some extent in the grievance process for

17

many of her grievances. ECF Nos. 197-62 at 25; 197-65 at 4; 197-21 at 11,103. However, the

18

evidence Garity points to does not show the national controlled the local’s activity. With regard

19

to the withdrawal of grievances by former local president Kathi Poulos, multiple witnesses

20

testified that the NBAs acted in a purely advisory role. See ECF Nos. 197-21 at 11, 38-39; 182-

21

20 at 8; 182-28 at 3. Moreover, the fact that the union’s grievance structure included eventual

22

involvement by the national does not show that the local union acted as the national’s agent.

23

Even making all reasonable inferences in favor of Garity, she has not pointed to evidence that

24
25
26
27

28

2 Nor did APWU waive this argument by not raising it at the appellate level. Garity
appealed the first dismissal, which was upheld in its entirety. Garity v. APWU Nat 7 Labor Org.,
655 Fed. App’x 523 (9th Cir. 2016). The court’s finding regarding vicarious liability was not at
issue in that appeal. It was also not at issue in the appeal of the second dismissal based on issue
preclusion.
Page 6 of 17

15

Case 2:ll-cv-01109-APG-CWH Document 209 Filed 03/14/18 Page 7 of 17

1

raises a material issue of fact as to whether the local was acting as APWU’s agent under common

2

law agency principles. It was not.

3

c. Instigate, Support, Ratify, Encourage

4

APWU contends that there is no evidence that it instigated, supported, ratified, or

5

encouraged any violations of the ADA by the local. It relies primarily on two cases holding that

6

inaction by a national or international in response to notifications from local members about

7

alleged abuses does not meet this test. See Brenner v. Local 514, United Bhd. ofCarpenters &

8

Joiners ofAm., 927 F.2d 1283,1289 (3d Cir. 1991); Rodonich v. House Wreckers Union Local 95

9

ofLaborers * Int 7 Union, 817 F.2d 967, 973-74 (2d Cir. 1987). In Brenner, the Third Circuit

10

held the plaintiffs had not shown encouragement or ratification because receiving letters with

11

allegations of fact shows at most constructive knowledge that is insufficient to impose a legal

12

duty upon the international union to intervene in a local’s affairs. 927 F.2d at 1289. In Rodonich,

13

the Second Circuit held that ratification required full knowledge of the alleged violations, and

14

upheld a jury instruction stating that the “mere fact that the International had oral or written

15

statements ... does not establish full knowledge ... of the facts asserted in those statements and

16

letters.” 817 F.2d at 973 (internal quotation and citation omitted); see also id. at 974 (upholding a

17

jury instruction making clear that the international had no independent duty to intervene in the

18

local’s affairs).
APWU contends that the internal charges Garity attempted to appeal to the national dealt

19
20

primarily with charges unrelated to disability discrimination. ECF Nos. 182-34; 182-35. The first

21

appeal letter, dated February 7,2011, asserts charges against Poulos regarding union issues, as

22

well as an additional charge of “Title VII discrimination on the basis of retaliation for EEO

23

activity by being a part of the decision to remove me as shop steward to deny me the right of

24

experienced representation denying me due process.” ECF No. 182-34 at 2. The second letter,

25

dated April 9,2012,3 asserts various charges unrelated to discrimination, as well as discrimination

26

against someone other than Garity. ECF No. 182-35 at 2-3. Even construing these letters

27
28

3 The handwritten date on the letter is “04-09-12” but the letter refers repeatedly to April
2011.
Page 7 of 17

16

Case 2:ll-cv-01109-APG-CWH Document 209 Filed 03/14/18 Page 8 of 17

1

generously, the receipt of either by APWU is insufficient to impose on it a duty to intervene in the

2

local’s affairs. See Bremer, 927 F.2d at 1289; Rodonich, 817 F.2d at 973-74. At most, the letters

3

would give the national constructive knowledge of the local’s actions, which does not rise to the

4

level of instigation, support, ratification, or encouragement.

5

Garity contends that her communications to APWU regarding the local’s actions—and

6

APWU’s inaction in response—are sufficient to hold the national liable. In support of this

7

argument, Garity cites to a 111-page exhibit comprised of emails from Garity to national officials,

8

grievances Garity filed, handwritten notes, grievance settlements and withdrawals, NLRB charges

9

against the local union, appeals of internal charges to the national, email chains among USPS

10

officials and national officials, and letters from Garity to APWU’s president. ECF No. 197-54.

11

These documents do not specifically address the local’s alleged disability discrimination and

12

retaliation. Even if Garity’s emails and grievance appeals to APWU officials show that APWU

13

had constructive knowledge of the alleged ADA violations, Garity has not pointed to any

14

evidence showing that APWU affirmatively instigated, encouraged, supported, or ratified these

15

actions.

16

Garity also produces a letter from Cliff Guffey, the APWU president, in which he writes

17

that he is assigning Omar Gonzalez (APWU Regional Coordinator) “to investigate and for a

18

response.” ECF No. 197-89. This letter is dated October 3,2011, and does not specify what

19

Gonzalez is to be investigating. Nor does Garity produce evidence that Gonzalez did not in fact

20

investigate whatever he was assigned to investigate.4 Cf. Brenner, 927 F.2d at 1289 (finding that

21

the international union was not required to credit as true the plaintiff’s allegations in letters, and

22

noting that the international had conducted investigations in response to some of the letters). The

23

Guffey letter does not show support or ratification of any action by the local, or even inaction by

24

the national.

25
26
27
28

4 Indeed, Garity produced emails from her to Gonzalez that support an inference that he
did take steps to investigate or at least reach out to her. See ECF No. 54 at 3-4.
Page 8 of 17

17

Case 2:ll-cv-01109-APG-CWH Document 209 Filed 03/14/18 Page 9 of 17

1

In sum, Garity has failed to demonstrate a genuine issue of material fact as to whether

2

APWU is liable for the local’s actions. It is not. Therefore, to the extent that Garity’s claims rely

3

on actions taken only by members of the local union, I grant summary judgment to APWU.
2. Disability Discrimination

4

a. Disparate Treatment

5
6

To “establish a prima facie case of discrimination under the ADA [the plaintiff] must

7

show that she: (1) is disabled; (2) is qualified; and (3) suffered an adverse employment action

8

because of her disability.” Snead v. Metro. Prop. & Cas. Ins. Co., 237 F.3d 1080,1087 (9th Cir.

9

2001). As applied to a discrimination claim against a union, the plaintiff must show either direct

10

evidence of discrimination by the union or evidence that the union treated her less favorably than

11

non-disabled, similarly situated individuals. See Beck v. United Food & Commercial Workers

12

Union, Local 99, 506 F.3d 874,882 (9th Cir. 2007) (holding a union member can make out a

13

prima facie claim of discrimination under Title VII if it “deliberately declines to pursue a

14

member’s claim” because of her protected class or treats her less favorably than others similarly

15

situated);5 Wesley v. Gen. Drivers, Warehousemen & Helpers Local 745, 660 F.3d 211,214 (5th

16

Cir. 2011).

17

The parties dispute the causation standard for proving disability discrimination. APWU

18

contends that but-for causation is required, relying on Gross v. FBL Financial Services, 557 U.S.

19

167 (2009). In Gross, the Supreme Court held that the text of the Age Discrimination in

20

Employment Act (ADEA) “does not provide that a plaintiff may establish discrimination by

21

showing that age was simply a motivating factor. Moreover, Congress neglected to add such a

22

provision to the ADEA when it amended Title VII” to change the causation standard to a

23

motivating factor. Id. at 174. APWU argues that because the ADA—like the ADEA—was not

24

amended as Title VII was, the plaintiff must show but-for causation. Garity contends that her

25

disability must be a motivating factor, rather than the but-for cause of any adverse actions. See

26

Headv. Glacier Northwest, Inc., 413 F.3d 1053,1065 (9th Cir. 2005) (applying the motivating

27
28

5 Courts “generally use Title VII precedent to interpret ADA claims.” Garity, 828 F.3d at
858 n.9.
Page 9 of 17

18

:ase 2:ll-cv-01109-APG-CWH Document 209 Filed 03/14/18 Page 10 of 17

1

factor standard), abrogated on other grounds by Univ. of Tex. Sw. Med Ctr. v. Nassar, 570 U.S.

2

338,360-62 (2013) (holding Title VII retaliation claims must be proved applying a but-for

3

causation standard); see also Phillips v. Victor Cmty. Support Servs., Inc., 692 Fed. App’x 920,

4

921 (9th Cir. 2017) (finding the district court correctly applied the motivating factor standard). I

5

need not decide this issue, because even applying the more generous standard advocated by

6

Garity, I still find that she has not shown a genuine issue of material fact that her disability was

7

the motivating factor behind any APWU action. Cf. Bukiri v. Lynch, 648 Fed. App’x 729, 731 n. 1

8

(9th Cir. 2016) (noting that other circuits have “retreated from the motivating factor standard in

9

ADA cases” but declining to decide the correct standard because it did not affect the outcome of

10

the case).

11

APWU argues that the national did not take any adverse actions against Garity. It notes

12

that resolving grievances in a manner unfavorable to Garity does not mean that she was treated

13

adversely. APWU points to two non-disability-related grievances settled by NBA Gilbert Ybarra,

14

one finding a violation (ruling in favor of Garity) and the other finding no evidence of a violation.

15

ECF Nos. 182-37; 182-38. APWU also reiterates its argument that Garity’s communications to

16

the national did not impose on it an affirmative duty to intervene in the local such that its inaction

17

could be considered an adverse action. Finally, APWU contends there is no evidence that it

18

failed to properly represent Garity in her grievances or treated her any differently than similarly

19

situated individuals.

20

In her opposition, Garity lists over twenty actions she considers to be adverse. However,

21

the majority of those actions were taken by USPS or local union officials. For example, Garity

22

argues that her hours were cut, she was accused of murder, and she was not allowed to perform

23

certain duties at the post office. Because APWU is not liable for the actions of the local or USPS,

24

these actions cannot form the basis of Garity’s claim. With respect to actions involving APWU,

25

Garity contends that certain of her grievances were withdrawn or settled, she was without valid

26

representation, she was given a six-day work assignment in violation of her medical restrictions,

27

28
Page 10 of 17

19

;ase 2:ll-cv-01109-APG-CWH Document 209 Filed 03/14/18 Page 11 of 17

1

NBA Shirley Taylor tried to prevent her from receiving back pay, and the national did not take

2

action upon Garity notifying it of discrimination.6

3

However, even assuming that the evidence shows these actions occurred, Garity produces

4

no evidence that APWU took any of them because of her disability or that she was treated

5

differently than similarly situated union members. The one adverse action Garity points to

6

involving similarly situated individuals is that her hours were cut in comparison to other part-time

7

flex and non-traditional full-time employees. However, these actions were taken by USPS, and

8

the only evidence Garity offers in support are work hour reports and a USPS calendar without any

9

context or explanation as to how they show that she was treated differently than similarly situated

10

individuals because of her disability. ECF No. 182-35. Therefore, Garity has not raised a genuine

11

issue of material fact regarding her disparate treatment claim. I grant summary judgment for

12

APWU on this claim.

13

b. Failure to Accommodate

14

The prima facie case for a failure to accommodate claim is very similar to that of a

15

disparate treatment claim. A plaintiff must demonstrate “(1) [she] is disabled within the meaning

16

of the ADA; (2) [she] is a qualified individual able to perform the essential functions of the job

17

with reasonable accommodation; and (3) [she] suffered an adverse employment action because of

18

[her] disability.” Allen v. Pac. Bell, 348 F.3d 1113,1114 (9th Cir. 2003). Generally, such a claim

19

is made against an employer, who has “a duty to engage in an interactive process to consider

20

whether” an accommodation is possible. Id. at 1115. In the context of a claim against a union, a

21

plaintiff must show that the union caused or attempted to cause the employer to fail to provide a

22

reasonable accommodation. See 42 U.S.C. § 2000e-2(c)(3); Hardison v. Trans World Airlines,

23

Inc., 527 F.2d 33,42 (8th Cir. 1975) (“[A] union may be held liable if it purposefully acts or

24

refuses to act in a manner which prevents or obstructs a reasonable accommodation by the

25
26
27

28

6 APWU argues in its motion that I should consider only actions occurring before May 7,
2011, as that is the last date included in Garity’s Equal Opportunity Employment Commission
(EEOC) charge that forms the basis of her complaint. Because I am granting summary judgment
on all claims even considering actions occurring after that date, I find it unnecessary to address
this argument.
Page 11 of 17

20

;ase 2:ll-cv-01109-APG-CWH Document 209 Filed 03/14/18 Page 12 of 17

1

employer so as to cause the employer to discriminate.”), rev’d on other grounds, 432 U.S. 63

2

(1977).

3

APWU argues that Garity never requested an accommodation from the national, and

4

neither it nor the local participated in USPS’s interactive accommodation process. See EOF No.

5

182-35. APWU contends it had no knowledge of any requests for accommodation, and that

6

Garity has no evidence to show that any of its actions were motivated by her disability. Garity

7

does not differentiate the adverse actions she considers to have been disparate treatment from

8

those she considers to be a failure to accommodate. Therefore, I interpret this claim to rely on the

9

withdrawal or handling of Garity’s grievances, the six-day work assignment, her lack of union

10

representation during early 2011, Taylor’s handling of Garity’s suspension grievance, and

11

APWU’s inaction in the face of notification by Garity as to a lack of accommodation.

12

Garity’s failure to produce evidence showing that her disability was a motivating factor in

13

any of these actions is fatal to her claim. As to the grievance handling, Garity points only to

14

testimony by Poulos that NBAs James Scoggins and Ybarra gave Poulos advice on how to handle

15

the grievances. See, e.g., ECF No. 197-21 at 11 (“Did I consult them? Yes. The decisions were

16

mine.”). APWU has produced testimony from both Scoggins and Ybarra that they were unaware

17

of Garity’s medical conditions. See ECF Nos. 182-24 at 5 (Scoggins testifying at his deposition

18

that he had no knowledge of Garity’s restrictions or disabilities); 182-31 at 3 (Ybarra testifying no

19

one discussed Garity’s medical conditions with him and he was unaware of any attempts by

20

Poulos to accommodate her disabilities). Garity has produced no evidence to rebut this showing

21

or to show that Scoggins and Ybarra were motivated by her disability in advising Poulos

22

regarding whether to withdraw grievances, or in their handling of her grievances on appeal.

23

Scoggins’ lack of knowledge as to Garity’s disability also negates any claim based on his

24

involvement in the local’s decision about six-day bids. The evidence Garity produced shows only

25

that Scoggins worked with the local on such bids, not that he was involved in a particular decision

26

as to Garity’s work schedule. See ECF Nos. 182-41 at 103-04. Garity has produced no evidence

27

28
Page 12 of 17

1

:ase 2:ll-cv-01109~APG-CWH Document 209 Filed 03/14/18 Page 13 of 17

1

showing that Scoggins was motivated by her disability when advising the local union regarding

2

six-day bids.

3

Garity also claims that she was without union representation from January through

4

August 2011. In support, she produces documentation that Poulos and Raydell Moore, a local

5

union member, were the local clerk shop stewards at the time, and that in May, Las Vegas local

6

president Jerry Bevens was certified to act as her shop steward with regard to all discipline issues.

7

ECF No. 197-81 at 2; 6-7; see also EOF No. 197-40 at 58 (Bevens’ deposition testimony stating

8

he was only designated to handle Garity’s discipline grievances). But see ECF No. 182-50 at 2

9

(Bevens’ declaration that he “effectively became Ms. Garity’s designated shop steward”). Garity

10

also points to Poulos’ deposition testimony that once Bevens was appointed, Poulos understood

11

that she was to no longer handle Garity’s grievances. ECF No. 197-21 at 45-46; 66. This

12

evidence shows there was confusion about the extent of Bevens’ representation of Garity. But the

13

fact that Bevens might not have been her designated representative for all possible grievances

14

does not show that Garity was without representation. See, e.g., ECF No. 182-50 (Bevens’

15

understanding he was appointed because Garity did not want to be represented by anyone at the

16

Pahrump local or had brought charges against possible representatives); ECF No. 197-21 at 43-

17

45 (Poulos’ testimony she was Garity’s representative until Bevens was appointed). Garity has

18

not produced evidence showing a lack of representation during the relevant time period, that

19

APWU was involved in any decision to withhold representation, or that any decision regarding

20

representation was motivated by her disability.

21

Next, Garity points to Taylor’s attempt to address her disciplinary suspension. See ECF

22

No. 197-65 at 4 (email written by Taylor detailing her experience with Garity). As part of

23

Taylor’s representation of Garity, Garity sent her an email in which she reiterated that they had

24

discussed the fact that Garity had applied for disability retirement and was in need of

25

accommodations from USPS. ECF No. 197-54 at 94. However, neither Taylor’s email explaining

26

her involvement with Garity nor Garity’s email shows that Taylor’s attempt to resolve Garity’s

27

28
Page 13 of 17

22

:ase 2:ll-cv-01109-APG-CWH Document 209 Filed 03/14/18 Page 14 of 17

1

grievance—assuming this is an adverse action—was motivated by Garity’s disability. Garity

2

offers no other evidence to support such an inference.

3

Finally, Garity contends that APWU took no action even though she requested assistance

4

in being accommodated, citing again to the 111-page exhibit containing many different kinds of

5

documents. See EOF No. 197-54. While these documents show that Garity was in touch with

6

national officials, they do not mention specific instances of a failure by USPS or the local to

7

accommodate Garity’s disabilities. In fact, most of these documents deal with Garity’s myriad

8

other grievances about her workplace. Garity has not produced any evidence showing that

9

APWU was involved in any accommodation decision, nor has she produced any evidence

10

showing that she asked APWU to specifically address any accommodations issues. Garity has

11

also not produced any evidence showing that APWU’s inaction was motivated by her disability.

12

Garity has failed to show a genuine issue of material fact regarding whether APWU

13

caused USPS to fail to reasonably accommodate her disabilities. APWU did not do so, so I grant

14

summary judgment for APWU on this claim.

15
16

3. Retaliation
“To establish a prima facie case of retaliation under the ADA, an employee must show

17

that: (1) he or she engaged in a protected activity; (2) suffered an adverse employment action; and

18

(3) there was a causal link between the two.” Pardi v. Kaiser Found Hospitals, 389 F.3d 840,

19

849 (9th Cir. 2004). “Pursuing one’s rights under the ADA constitutes a protected activity.” Id. at

20

850. “An adverse employment action is any action reasonably likely to deter employees from

21

engaging in protected activity.” Id. (internal quotation omitted). When adverse actions “closely

22

follow complaints of discrimination, retaliatory intent may be inferred.” Id. The standard for the

23

“causal link is but-for causation.” T.B. ex rel Brenneise v. San Diego Unified Sch. Dist., 806 F.3d

24

451,473 (9th Cir. 2015).

25

APWU argues it did not take any adverse actions against Garity, and that any adverse

26

actions taken were not caused by her ADA-protected activity. APWU contends that NBAs are

27

given broad discretion to resolve grievances, and Garity has not produced any evidence that any

28
Page 14 of 17

73

:ase 2:ll-cv-01109-APG-CWH Document 209 Filed 03/14/18 Page 15 of 17

1

of her grievances was settled, withdrawn, or remanded as a result of her protected activity.

2

APWU also argues that to the extent Garity’s retaliation claim is based on her National Labor

3

Relations Board (NLRB) charge against the local union, there is no evidence APWU knew about

4

that charge. APWU contends that to the extent the claim is based on her EEOC charges, the only

5

responsive action from the national was to appoint Bevens as Garity’s representative, which is not

6

an adverse action. To the extent the claim is based on Garity’s appeals of internal charges,

7

APWU contends its response was to inform her of the proper procedure to bring those charges.

8

Moreover, APWU argues that there is no evidence in the record showing that Garity’s pursuit of

9

her rights under the ADA was the but-for cause of any of its action.

10

Garity argues that her protected activity included three EEOC charges, three NLRB

11

charges, appeals of internal union charges, and emails and letters to national officials. Many of

12

the adverse actions she lists were taken by USPS or local union officials, for which APWU

13

cannot be held liable. For example, Garity refers to reduced hours at work, her suspension, and

14

Poulos’s handling of her grievances.

15

As for actions attributable to APWU and its officers, Garity has failed to show either that

16

they are adverse or that they were caused by her protected activity. Four of these allegations

17

involve Scoggins. First, Garity refers to a telephonic statement by Scoggins to Poulos about

18

Garity’s rights at work that was apparently made within 30 days of her filing one of her EEOC

19

charges. See ECF No. 197-21 at 98-99. The statement was that Garity needed to find out the

20

purpose of a meeting with USPS management before invoking her right to union representation.

21

Id. Garity has not shown that she knew about this statement until Poulos mentioned it in her

22

deposition, and therefore she has not shown that the statement reasonably deterred her from

23

protected activity. Nor has Garity shown that this statement was made because of her pursuit of

24

ADA-protected rights. Second, Garity alleges Scoggins agreed to a six-day work bid for Garity

25

even though she was on a five-day work restriction. However, as discussed above, the evidence

26

cited by Garity shows at most that Scoggins worked with the local union and management on six-

27

day bids and told local officials that such bids were in place in California. See ECF No. 197-41 at

28
Page 15 of 17

24

:ase2:ll-cv-01109-APG-CWH Document 209 Filed 03/14/18 Page 16 of 17

1

103. This evidence does not show that Scoggins was involved with any decision to make Garity

2

work for six days or that such a decision would have been caused by Garity’s protected activity.

3

Third, Garity points to an email Scoggins sent to Rob Strunk (who is not identified but is

4

presumably an APWU official) in which he details his and other NBAs’ experiences with Garity.

5

ECF No. 197-54 at 103. Again, Garity does not show that she knew about this email before this

6

litigation, nor does she explain how, without knowing about it, this email could have deterred her

7

from engaging in protected activity.

8
9

Fourth, Garity points to Scoggins’ handling of one of her grievances from September
2010. See ECF No. 197-54 at 5-12. The grievance addressed many issues at the Pahrump post

10

office, most of which did not relate to disability discrimination. The only mention of

11

discrimination was vague and without supporting detail or factual allegations. See id. at 8-9

12

(“Retaliation Title VII An employer may not ‘retaliate’ against. ADA protects intimidation,

13

threats, harassment in exercise of rights.... Failure to accommodate & discrimination are also

14

occurring.”). Scoggins’ response was to let Garity know that APWU attempted to go through the

15

grievance process but USPS maintained that the grievance had not been properly appealed. Id. at

16

12. He requested proof of Garity’s proper appeal so that the matter could be dealt with further.

17

Id. Rather than showing an adverse action by APWU, this evidence shows that Scoggins

18

attempted to engage in the grievance process on Garity’s behalf. Garity does not explain how the

19

APWU’s attempt to make sure it had the proper documentation so that it could pursue her

20

grievance would deter her from engaging in protected activity.

21

Next, Garity points to APWU’s motion in a separate case opposing Garity’s motion to

22

vacate an arbitration award regarding her grievance over her suspension. ECF No. 197-58. Garity

23

has not provided any evidence that APWU’s litigation strategy is causally linked to any of her

24

EEOC, NLRB, or internal charges and communications regarding disability discrimination.

25

Garity also argues that Taylor retaliated against her by “formulating an agreement to provide back

26

pay of 4 hours a day because ofGarity ’s disabilities while she was able to work full hours within

27

two months of the lawsuit.” ECF No. 197 at 26 (emphasis in original). In an email written by

28
Page 16 of 17

5

'ase 2:ll-cv-01109-APG-CWH Document 209 Filed 03/14/18 Page 17 of 17

1

Taylor explaining how she handled Garity’s grievance about her suspension, Taylor noted that

2

Garity would not accept a resolution that did not address disability retirement, which was not

3

possible because Garity “was not disciplined for anything concerning disability.” ECF No. 197-

4

65. Garity did not want to settle, so Taylor appealed the suspension to arbitration. Id Again,

5

rather than taking adverse action, Taylor attempted to help Garity fight her suspension, and rather

6

than make a unilateral decision and accept a settlement, Taylor rejected the settlement and

7

appealed USPS’s actions to arbitration. That Taylor was not able to get the exact outcome Garity

8

desired does not mean that she took adverse action against her. Furthermore, Garity has offered

9

no evidence to show that her protected activity was the but-for cause of Taylor’s actions.
Finally, Garity argues that APWU’s inaction in the face of numerous communications and

10
11

appeals was a form of retaliation. Even if such inaction could be considered adverse action that

12

would reasonably deter an employee from protected activity, Garity has not produced any

13

evidence showing that APWU purposefully took no action because of her protected activity. Any

14

temporal proximity arises from how often Garity engaged in protected activity rather than giving

15

rise to an inference of retaliatory intent
Garity has failed to show a prima facie case of retaliation under the ADA against APWU.

16
17
18
19

I grant summary judgment to APWU on this claim.
II.

CONCLUSION
IT IS THEREFORE ORDERED that defendant APWU National Labor Organization’s

20

motion for summary judgment (ECF No. 182) is GRANTED. The clerk of court shall enter

21

judgment in favor of APWU National Labor Organization and against Rosemary Garity.

22
23
24

25
26
27

28

IT IS FURTHER ORDERED that plaintiff Rosemary Garity’s motion to strike (ECF No.
188) is DENIED.
IT IS FURTHER ORDERED that APWU’s motion to strike (ECF No. 204) is DENIED
as moot.
DATED this 14th day of March, 2018.
ANDREW P. GORDON
UNITED STATES DISTRICT JUDGE

Page 17 of 17

26

Case 2:ll-cv-01109-APG-CWH Document 210 Filed 03/15/18 Page 1 of 1
AO450 (NVD Rev. 2/18) Judgment in a Civil Case

United States District Court
DISTRICT OF NEVADA
Rosemary Garity
JUDGMENT IN A CIVIL CASE
Plaintiff,
v.

Case Number: 2:ll-cv-01109-APG-CWH

APWU-AF1-CIO ,etal
Defendant.
Jury Verdict. This action came before the Court for a trial by jury. The issues have been tried and
the jury has rendered its verdict.
Decision by Court. This action came to trial or hearing before the Court. The issues have been tried
or heard and a decision has been rendered.
X

Decision by Court. This action came for consideration before the Court. The issues have been
considered and a decision has been rendered.

IT IS ORDERED AND ADJUDGED
that Judgment is entered in favor of Defendant APWU National Labor Organization and against Plaintiff
Rosemary Garity.

3/15/2018
Date

DEBRA K. KEMPI
Clerk

1st S. Denson
Deputy Clerk

27

APPENDIX C

28

Case: 18-15633, 02/24/2021, ID: 12015511, DktEntry: 71, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
FEB 24 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

ROSEMARY GARITY,
Plaintiff-Appellant,
v.
APWU NATIONAL LABOR
ORGANIZATION,

No.

18-15633

D.C. No.
2:1 l-cv-01109-APG-CWH
District of Nevada,
Las Vegas
ORDER

Defendant-Appellee,
NEVADA POSTAL WORKERS UNION,
Intervenor.
Before: PAEZ and OWENS, Circuit Judges, and ENGLAND,* District Judge.
The panel has unanimously voted to deny the Appellant’s petition for
rehearing.
The full court has been advised of Appellant’s petition for rehearing en banc,
and no judge of the court has requested a vote on the petition for rehearing en banc.
Fed. R. App. P. 35.
The petition for rehearing and the petition for rehearing en banc are
DENIED.

The Honorable Morrison C. England, Jr., United States Senior District
Judge for the Eastern District of California, sitting by designation.
29

f

I

APPENDIX D

30

Case 2:ll-cv~01109-APG-CWH Document 76 Filed 06/18/12 Page lot 21

l
2
3

UNITED STATES DISTRICT COURT
4

DISTRICT OF NEVADA

5

* * *

9

)
)
)
)
)
)
)

10

APWU NATIONAL AFL-CIO and APWU)
LOCAL #7156,

6

ROSEMARY GARITY,
7

Plaintiff,
8

v.

Defendants.

11

2:1 l-CV-01109-PMP-CWH
ORDER

!

12

Presently before the Court is Defendant APWU Local #7156’s Motion to Dismiss

13
14

Amended Complaint (Doc. #57) and Defendant APWU National AFL-CIO’s Motion to

15

Dismiss Amended Complaint (Doc. #60), both filed on December 6, 2011. Plaintiff

16

Rosemary Garity filed an Opposition (Doc. #69) on December 19, 2011. Defendants filed a

17

Joint Reply (Doc. #70) on January 6, 2012.

18

I. BACKGROUND
The following factual recitation is derived from Plaintiff Rosemary Garity’s

19
20

Amended Complaint. For purposes of Defendants’ motions to dismiss, the Court accepts

21

Plaintiffs factual allegations as true. Bell Atl. Corp. v. Twomblv. 550 U.S. 544, 555

22

(2007).

23

A. Plaintiffs Employment and Impairments

24

Plaintiff Rosemary Garity is employed by the American Postal Worker’s Union

25

(“the National APWU”) as vice-president of the southern district of Nevada. (Am. Comp!.

26

(Doc #54) at 4:18.) Plaintiff was also employed by APWU Local #7156 (“the Local
31

Case 2:ll-cv-01109-APG-CWH Document 76 Filed 06/18/12 Page 2 of 21

l

APWU”) as a shop steward between January 2008 and January 12,2011. (Id. at 4:19-20.1

2

Plaintiff was a member of the Local APWU at all times relevant to this action. (Id. at

3

4:20.) Plaintiff suffers from mental and physical impairments including: heel spurs, chest

4

pains, chronic fatigue, sleep disturbance, myalgia, muscle spasms, osteoporosis, major

5

depressive disorder, anxiety disorder, panic attacks, and cancer. (Id. at 4:26-5:1.)

6

In September 2010, Debra Blankenship (“Blankenship”) became the new

7

Postmaster. (Id. at 22:26-23:2.) After Blankenship’s arrival, Plaintiff began to observe

8

favoritism and disparate treatment in the office and decided to address it through the

9

grievance system. (Id. at 23:1-2.) On November 10, 2010, Kathi Poulos (“Poulos”), the

10

newly-elected president of the Local APWU, arrived after being voted in by a group whom

11

Plaintiff labels the “favorite employees.” (Id at 23:6-8.) On December 29,2010, Poulos

12

entered into an agreement with the United States Post Office management in Pahrump,

13

Nevada (“Management”) to cut Plaintiff’s hours. (Id. at 23:11-13.) From December 2010

14

through January 2011, Poulos secretly met with others to discuss removing Plaintiff from

15

her position as shop steward because Plaintiff had begun to file grievances to address the

16

favoritism and disparate treatment. (Id. at 23:14-24.)

17

On January 11,2011, Plaintiff missed a grievance meeting in Las Vegas “due to

18

[her] legs and feet locking up severely.” (Id at 6:8-10.) That same day, Poulos informed

19

Management that Poulos planned to remove Plaintiff from her position as shop steward for

20

the Local APWU. (Id at 24:15-17.) Management sent Plaintiff home early. (Id. at 24:16.)

21

The next day, Poulos told Plaintiff “after that stunt you pulled yesterday” she was removing

22

Plaintiff as shop steward for the Local APWU and appointing herself to Fill the position.

23

(Id at 6:10-12, 24:19-20.)

24

B. Plaintiff’s Grievances

25

Plaintiff asked APWU officials to file dozens of grievances on her behalf.

26

Poulos and other officials refused to investigate and file many of these grievances. (Id. at.
2

32

Case 2:ll-cv-01109-APG-CWH Document 76 Filed 06/18/12 Page 3 of 21

1

14:22-19:12.) Of the grievances filed, Poulos assured Plaintiff that all the grievances were

2

valid, but Poulos later withdrew over forty of these grievances. (Id. at 20:2-22:20.) In one

3

instance, on January 22, 2011, Poulos told Plaintiff that another employee wanted Poulos to

4

withdraw Plaintiff’s grievances regarding discrimination and retaliation, which Poulos did.

5

(Id. at 26:3-19.) Poulos was openly hostile towards Plaintiff every time she requested that

6

Poulos file a grievance on Plaintiff’s behalf, and Poulos told Plaintiff that she was the only

7

one having problems. (Id. at 11:6-8.) Poulos also refused to address Management’s

8

“continual and constant mental abuse/harassment” of Plaintiff. (Id. at 11:1-2.) On

9

February 1, 2011, Plaintiff approached the alternate shop steward, A1 Weyen (“Weyen”), to

10

file multiple grievances but he refused to investigate and the time limits on the grievances

11

lapsed. (Id. at 27:19-23.) Furthermore, the National APWU business agents James

12

Scoggins (“Scoggins”) and Gilbert Ybarra (“Ybarra”) withdrew grievances, settled

13

grievances in favor of Management, and advised Poulos to withdraw and not file

14

grievances on Plaintiff’s behalf. (Id. at 5:8-11,10:9-1 L)

15

Many of Plaintiff’s grievances related to adverse scheduling. Plaintiff repeatedly

16

filed grievances relating to the cutting of her hours and the “criminal delay” of mail. (See,

17

e.g.. id. at 15:8-20.) Poulos and Management scheduled Plaintiff to work irregular hours.

18

(See, e.g.. id. at 28:2-3.) During a discussion between Poulos and Plaintiff on March 23,

19

2011, Poulos stated that Plaintiff was restricted to working four hours a day, four days a

20

week; Plaintiff disagreed. (M- at 30:23-27.) Poulos also stated that it was better for

21

Plaintiff’s chronic fatigue and sleep apnea to start work later in the day, but Plaintiff argued

22

that it was actually better for her condition if she started work earlier in the day. (Id. at

23

31:1-3.) Poulos indicated that Plaintiff’s work restrictions kept changing based on

24

Management’s instructions to Poulos. (Id. at 30:28-31:1.)

25

Plaintiff also grieved the quality of the representation she received from

26

Defendants and requested alternative representation. (See, e.g.. id. at 36:1-2.) On April 21,
3

33

Case 2:ll-cv-01109-APG-CWH Document 76 Filed 06/18/12 Page 4 of 21

1

2011, Management refused to sign Plaintiff’s request for representation. (Id at 33:1-2.)

2

On May 2,2011, the regional coordinator assigned Jerry Bevens (“Bevens”), President of

3

APWU Local #761, as Plaintiffs new representative for disciplinary grievances. (Id. at

4

33:27-28, 34:24.)

5

C. Plaintiff’s Discipline

6

On April 20, 2011, Poulos wrote a three-page statement to Management

7

regarding Plaintiff. (Id. at 32:23-25.) Management used this letter in its decision to

8

suspend Plaintiff for thirty days. (Id. at 32:25-26.) Plaintiff received her thirty day

9

suspension letter on April 28, 2011. (Id at 33:17-18.) On May 9, 2011, Plaintiff received a

10

notice of removal. (Id at 34:7-9.) On May 30,2011, Bevens wrote a letter stating that

11

Plaintiff had “no chance of surviving the discipline without outside representation” and that

12

Poulos and Raydell Moore, ex-regional coordinator and technical advisor to the Local

13

APWU, were refusing to cooperate with the investigation and were working with

14

Blankenship and Management instead of the APWU. (Id. at 34:24-28.) On June 11,2011,

15

Plaintiff was removed from the Postal Service. (Id. at 35:10.) Plaintiff claims she was

16

disciplined for requesting alternative representation from the APWU, time off, and

17

schedule changes; Poulos’s statements to Management; and Plaintiff’s disabilities. (Id at

18

33:1-5, 8:22-24,32:23-26.)

19

After Plaintiffs removal, National APWU business agent Shirley Taylor

20

(“Taylor”) negotiated a settlement on Plaintiffs behalf wherein Plaintiff would be paid for

21

four hours a day from June 25,2011 through September, 2011. (Id at 7:26-27.) Plaintiff

22

asked Taylor if she would be removed, reinstated, or retired, and Taylor responded no. (Id

23

at 7:28-8:1.) Taylor told Plaintiff she could not return to work because Plaintiff had

24

applied for disability retirement. (Id. at 8:12-13.) Taylor also told Plaintiff that her doctor

25

stated Plaintiff could not work. (Id. at 8:15-16.) Plaintiff alleges that many employees

26

apply for disability retirement and keep working until approved, her doctor did not state
4

34

Case 2:ll-cv-01109-APG-CWH Document 76 Filed 06/18/12 Page 5 of 21

1

that she could not work, she could perform her job duties if properly accommodated, and

2

Plaintiffs grievance had nothing to do with her restrictions but instead her grievance relates

3

to Plaintiffs unjust removal. (IdL at 8:13-22.)

4

On August 10,2011, Poulos and Danielle Bennett (“Bennett”), another shop

5

steward, announced that they had agreed to new work restrictions for Plaintiff: fewer than

6

forty hours a week, six days a week. (Id. at 2:4-5. 35:24-25.) Plaintiff requested Bennett

7

file a grievance regarding the new restrictions, but Bennett told Plaintiff that she was not

8

Plaintiffs shop steward. (Id. at 35:26-27.) Plaintiff asked Poulos to file a grievance

9

regarding these restrictions, but Poulos refused as well. (M. at 35:28-36:2.) In August

10

2011, National APWU business agent Scoggins agreed to the six-day a week assignment

11

for Plaintiff. (Id. at 4:6-8,36:5-6.) Plaintiff was not happy with this new assignment

12

because it was contrary to a prior position taken by the National APWU and all but one

13

person at the August union meeting viewed this new assignment as undesirable. (Id. at 4:6-

14

12,36:6-7.) The Postal Service reinstated Plaintiff on September 27,2011. (Id. at 36:13.)

15

After Plaintiffs reinstatement, on October 18,2011, a shop steward bullied

16

Plaintiff, and in response, Plaintiff called threat assessment because she was crying

17

uncontrollably. (Id. at 36:17-20.) On October 21,2011, Plaintiff had a mental breakdown

18

because she was unable to handle any more abuse. (I& at 36:21.) From the end of October

19

to the beginning of November 2011, Plaintiff took vacation time, sick leave, and leave

20

under the Family and Medical Leave Act (“FMLA”) to remove herself from the

21

environment. (Id at 36:22-23.)

22

D. History of the Present Action

23

On February 17,2011, Plaintiff filed an Equal Employment Opportunity

24

(“EEO”) complaint against the APWU. (Id. at 28:21.) On March 18,2011, Plaintiff filed

25

charges with the Equal Employment Opportunity Commission (“EEOC”). (Id at 30:16.)

26

However, the APWTJ refused to mediate the EEOC grievances. (Id at 33:25.) On June 23,
5

35

Case 2:ll-cv-01109-APG-CWH Document 76 Filed 06/18/12 Page 6 of 21

1

2011, the EEOC issued Plaintiff a Notice of Right to Sue letter. (IcL at 3 5:11; Mot. for

2

Leave (Doc. #74).)
On July 6,2011, Plaintiff filed a Complaint (Doc. #1) in this Court against

3
4

Defendants, which this Court dismissed without prejudice for insufficient service of

5

process and failure to state a claim. (Order (Doc #53).) The Court ordered Plaintiff to

6

effect proper service by November 28,2011. (Id.) Plaintiff then filed an Amended

7

Complaint (Doc. #54) on November 15,2011. Plaintiff filed proof of service on the

8

National APWU on December 5,2011 and the Local APWU on December 9,2011. (Proof

9

of Serv. (Doc. #56); Proof of Serv. (Doc. #67).) Plaintiffs Amended Complaint asserts

10

violations of 42 U.S.C. §§ 2000e-2, 2000e-3 (“Title VII”); the Americans with Disabilities

11

Act of 1990 (“ADA”); the Americans with Disabilities Act Amendments Act (“ADAAA”);

12

and the Rehabilitation Act of 1973 (“Rehab Act”). Specifically, Plaintiff alleges: disability

13

discrimination in violation of Title VII (counts I, IV, and V); retaliation in violation of Title

14

VII (count II); hostile work environment in violation of Title VII (count III); intentional

15

infliction of emotional distress (count VI); negligent retention (count VI)1; and conspiracy

16

to violate her civil rights under 42 U.S.C. §§ 1981,1983,1985,1986 (count VII).
Defendants now move to dismiss Plaintiff’s Amended Complaint. Defendants

17
18

argue Plaintiff fails to state a claim upon which relief may be granted. In addition, the

19

National APWU argues Plaintiff failed to exhaust her administrative remedies, and the

20

National APWU is not vicariously liable for the Local APWU’s conduct. The Local

21

APWU asserts that Plaintiff has not filed proof of service on the Local APWU. Plaintiff

22

responds that she has sufficiently pled facts, if found to be true, to establish a prima facie

23

case for each of her causes of action. Plaintiff also argues she exhausted her administrative

24

///

25
26

1 Plaintiff erroneously labels two claims as Count VI.
6

36

Case 2:ll-cv-01109-APG-CWH Document 76 Filed 06/18/12 Page 7 of 21

1

remedies, but does not respond to the Local APWU’s proof of service argument,2

2

n. DISCUSSION

3

4

A. Procedural Grounds for Dismissal
L Proof of Service

5

The Local APWU argues that Plaintiff has not filled proof of service upon the

6

Local APWU in compliance with Federal Rule of Civil Procedure 4, and thus the Court

7

must dismiss all claims against the Local APWU. Plaintiff does not respond.

8

Federal Rule of Civil Procedure 4(m) requires that a plaintiff serve a defendant

9

“within 120 days after the complaint is filed.” Rule 4(1)(1) provides that “[u]nless service

10

is waived, proof of service must be made to the court. Except for service by a United

11

States marshal or deputy marshal, proof must be by the server’s affidavit.”

12

Here, Plaintiff filed the Amended Complaint on November 15,2011. (Am.

13

Compl. (Doc. #54).) On December 5, 2011, Plaintiff filed proof of service of the Amended

14

Complaint on the National APWU, including an affidavit by the process server, stating that

15

he served the National APWU on November 22,2011. (Proof of Serv. (Doc. #56).)

16

Although Plaintiff did not file proof of service on the Local APWU prior to the Local

17

APWU filing its Motion to Dismiss, on December 9,2011, Plaintiff filed proof of service

18

on the Local APWU, including a statement by the server that he served the Local APWU

19

on December 7,2011. (Proof of Serv. (Doc. #67).) December 5 and 9,201 lfall within the

20

120 day time period for service under Rule 4(m). Therefore, the Court will deny the Local

21

APWU’s Motion to Dismiss for improper service.

22
23
24
25

26

2 Plaintiffattaches four letters to her Opposition. Federal Rule of Civil Procedure 12(d)“gives
courts the discretion to accept and consider extrinsic materials offered in connection with [a motion
to dismiss], and to convert the motion to one for summary judgment.” Hamilton Materials. Inc, v.
Dow Chem. Coro.. 494 F.3d 1203,1207 (9th Cir. 2007). The Court declines to consider the evidence
presented by Plaintiff and will not convert Defendants’ motions to dismiss to motions for summary
judgment.
7

37

Case 2:ll-cv-01109-APG-CWH Document 76 Filed 06/18/12 Page 8 of 21

1
2

2. Exhaustion Requirement
The National APWU argues that Plaintiff did not exhaust her administrative

3

remedies with respect to any claim against the National APWU because she did not name

4

the National APWU in her EEOC complaint. Plaintiff responds that she filed a charge

5

against both Defendants, and even so, the claims against the National APWU were

6

reasonably expected to grow out of the allegations presented to the EEOC.

7

To bring an ADA claim for disability discrimination,3 a plaintiff must first

8

exhaust her administrative remedies. 42 U.S.C. §§ 2000e-5,12117(a) (incorporating the

9

Title VII exhaustion requirement into Title I of the ADA); Sommatino v. United States. 255

10

F.3d 704, 707 (9th Cir. 2001). To illustrate, a federal employee must notify an EEO

11

counselor of the discrimination within forty-five days of the alleged conduct, and if the

12

matter remains unresolved, the employee may file a formal complaint with the EEOC.

13

Sommatino. 255 F.3d at 708. This exhaustion requirement is statutory rather than

14

jurisdictional. Zipes v. Trans World Airlines. Inc.. 455 U.S. 385, 393 (1982). But,

15
16
17
18
19
20

21
22
23

24
25
26

3 Title VII prohibits discrimination based on race, color, religion, sex, and national origin.
42 U.S.C. § 2000e-2. Plaintiff describes her claims as Title VII claims for discrimination based on
disability, but disability is not a protected class under Title VII. However, at the beginning of her
Amended Complaint, Plaintiff also alleges that Defendants violated her rights under the ADA. The
ADA prohibits discrimination against employees with disabilities by certain employers. 42 U.S.C. §§
12111(5), 12112(a). The Court will liberally construe Plaintiffs Title VII claims (counts I to V) as
ADA claims. Eldridee v. Block. 832 F.2d 1132, 1137 (9th Cir. 1987) (“The Supreme Court has
instructed the federal courts to liberally construe the ‘inartful pleading’ ofpro se litigants.” (quotation
omitted)).
Plaintiff also alleges Defendants violated her rights under the Rehab Act, which prohibits
discrimination against employees with disabilities by federal employers, federal contractors, and
recipients of federal financial assistance. 29 U.S.C. §§ 791,793,794; Oliver v. Ralphs Grocery Co..
654 F.3d 903, 910 n.10 (9th Cir. 2011). Plaintiff has not alleged that Defendants are federal
employers, federal contractors, or recipients of federal financial assistance. As such, the Court will
not construe Plaintiffs Title VII claims as Rehab Act claims. Likewise, Plaintiff alleges Defendants
violated her rights under the ADAAA; however, the ADAAA merely expanded the definition of
“disability” under the ADA. Rohr v. Salt River Project Aerie. Improvement & Power Dist.. 555 F.3d
850, 853 (9th Cir. 2009). Therefore, the Court will not construe Plaintiffs Title VII claims as
ADAAA claims.
8

38

Case 2:ll-cv-01109-APG-CWH Document 76 Filed 06/18/12 Page 9 of 21

l

substantial compliance with the presentment requirements of a discrimination complaint is

2

a jurisdictional prerequisite. Sommatino. 255 F.3d at 708.

3

The district court’s jurisdiction is limited to the scope of the EEOC charge and

4

investigation, claims that are “Tike or reasonably related’ to the allegations made in the

5

EEOC charge,” and claims that “can reasonably be expected to grow out of’ the EEOC

6

charge and investigation. Deppe v. United Airlines. 217 F.3d 1262,1267 (9th Cir. 2000)

7

(quotations omitted). More specifically, district courts have jurisdiction over claims against

8

parties named in the EEOC charge, parties involved in the conduct giving rise to the EEOC

9

charge, and parties that should have anticipated that the plaintiff would bring suit against

10

them. Sosa v. Hiraoka. 920 F.2d 1451, 1458-59 (9th Cir. 1990) (quotations omitted).

11

Here, Plaintiff uses the generic term “APWU” in her EEOC Charge of

12

Discrimination. (Deck of Anton Hajjar in Supp. of Defs.’ Motions to Dismiss (Doc. #13),

13

Ex. 1.) Likewise, in her Amended Complaint, Plaintiff alleges that she filed an “EEO

14

complaint against the APWU” and “EEOC charges [] against [the] APWU.” (Am. Compl.

15

at 28:21,30:16.). Plaintiff does not specify in her Amended Complaint whether her EEO

16

complaint and EEOC charges were against the National APWU, the Local APWU, or both.

17

Construing Plaintiffs pro se Amended Complaint liberally, the Court finds that Plaintiff

18

filed an EEO complaint and EEOC charges against both Defendants.

19

But even assuming Plaintiff did not name the National APWU in her EEO

20

complaint and EEOC charges, the National APWU was involved in the acts giving rise to

21

the EEOC claims and should have anticipated that Plaintiff would bring suit against it. For

22

example, National APWU business agents Scoggins and Ybarra withdrew grievances,

23

settled grievances in favor of Management, and advised Poulos to withdraw and not file

24

grievances on Plaintiffs behalf. (Id. at 5:8-11,10:9-11.) Accordingly, the Court has

25

jurisdiction over Plaintiffs claims against Defendants, and thus, the Court will deny the

26

National APWU’s Motion to Dismiss for failure to exhaust administrative remedies.
9

39

Case 2:ll-cv~01109-APG-CWH Document 76 Filed 06/18/12 Page 10 of 21

1

B. Substantive Grounds for Dismissal

2

Pursuant to Federal Rule of Civil Procedure 12(b)(6), a defendant may move the

3

Court for the dismissal of a complaint based upon its “failure to state a claim upon which

4

relief can be granted.” In considering whether the complaint is sufficient to state a claim,

5

“all well-pleaded allegations of material fact are taken as true and construed in a light most

6

favorable to the non-moving party.” Wvler Summit P’ship v. Turner Broad. Svs. Inc.. 135

7

F.3d 658, 661 (9th Cir. 1998). To succeed on such a motion, the defendant must show the

8

plaintiff does not make sufficient factual allegations to establish a plausible entitlement to

9

relief. Ashcroft v. Iqbal. 556 U.S. 662, 678 (2009) (citing Twomblv. 550 U.S. at 570).

10

Such allegations must amount to “more than labels and conclusions, [or] a formulaic

11

recitation of the elements of a cause of action.” Twomblv. 550 U.S. at 555. “In

12

determining the propriety of a Rule 12(b)(6) dismissal, a court may not look beyond the

13

complaint to a plaintiffs moving papers, such as a memorandum in opposition to a

14

defendant’s motion to dismiss.” Schneider v. Cal. Dep’t of Corr., 151 F.3d 1194,1197 n.l

15

(9th Cir. 1998) (emphasis omitted).

16

“A document filed pro se is to be liberally construed, and a pro se complaint,

17

however inartfully pleaded, must be held to less stringent standards than formal pleadings

18

drafted by lawyers.” Erickson v. Pardus. 551 U.S. 89,94 (2007) (internal citation and

19

quotation marks omitted). Thus, the court “must afford plaintiff the benefit of any doubt”

20

in construing a pro se complaint. Karim-Panahi v. L.A. Police Dep’t. 839 F.2d 621, 623

21

(9th Cir. 1988).

22
23

1. Disability Discrimination—Counts I. IV. and V
Defendants contend Plaintiffs Amended Complaint does not allege facts

24

establishing that the alleged discriminatory conduct was because of Plaintiff s disability.

25

The National APWU in particular argues that Plaintiff does not allege facts tying the

26

National APWU to the alleged discriminatory conduct. Both Defendants argue they were
10

40

Case 2:ll-cv-01109-APG-CWH Document 76 Filed 06/18/12 Page 11 of 21

1

under no affirmative duty to combat discrimination. Even so, Defendants contend they

2

have not taken adverse action or any type of action that would dissuade a reasonable

3

employee from engaging in a protected activity. In response, Plaintiff argues that she (1)

4

suffers from a disability because her physical and mental impairments substantially limit

5

her major life activities and Defendants knew about these impairments; (2) was qualified

6

for and satisfied the requirements of her position; (3) requested an accommodation; and (4)

7

suffered adverse employment actions because of her disability.

8
9

The ADA provides, in relevant part, “No covered entity shall discriminate
against a qualified individual on the basis of disability in regard to ... [the] discharge of

10

employees.” 42 U.S.C. § 12112(a). The ADA defines discrimination as “not making

11

reasonable accommodations to the known physical or mental limitations of an otherwise

12

qualified individual with a disability who is an applicant or employee, unless such covered

13

entity can demonstrate that the accommodation would impose an undue hardship on the

14

operation of the business of such covered entity.” M. § 12112(b)(5)(A). To state a prima

15

facie case under the ADA, a plaintiff must demonstrate (1) she is disabled within the

16

meaning of the ADA, (2) she is a qualified individual, and (3) she suffered an adverse

17

employment action because of her disability. Nunes v. Wal-Mart Stores. Inc.. 164F.3d

18

1243,1246 (9th Cir. 1999). Here, Defendants do not dispute that Plaintiff is disabled

19

within the meaning of the ADA and a qualified individual. However, Defendants dispute

20

whether Plaintiff suffered an adverse employment action because of her disability.

21
22

a. Adverse Employment Action
The United States Court of Appeals for the Ninth Circuit has not specifically

23

defined “adverse employment action” for purposes of an ADA discrimination claim. But,

24

“[i]t is beyond challenge that a person’s termination is considered an adverse employment

25

action.” Snead v. Metro. Prop. & Cas. Ins. Co.. 237 F.3d 1080,1089 (9th Cir. 2001).

26

Likewise, disciplinary suspension is an adverse employment action giving rise to a
11

41

Case 2:ll-cv-01109-APG-CWH Document 76 Filed 06/18/12 Page 12 of 21

1

disability discrimination claim. See Raad v. Fairbanks N. Star Borough Sch. Dist.. 323

2

F.3d 1185, 1196 (9th Cir. 2003). Adverse employment actions also include “refusing to

3

make reasonable accommodations for a plaintiffs disabilities.” Colwell v. Rite Aid Corp..

4

602 F.3d 495, 504 (3d Cir. 2010) (quotation omitted). Specifically, an employer

5

discriminates by “not making reasonable accommodations to the known physical or mental

6

limitations of an otherwise qualified individual with a disability who is an applicant or

7

employee, unless such covered entity can demonstrate that the accommodation would

8

impose an undue hardship on the operation of the business of such covered entity.”

9

42 U.S.C. § 12112(b)(5)(A).

10

Unions shall not “cause or attempt to cause an employer to discriminate against

11

an individual in violation of [Title VII].” 42 U.S.C. § 2000e-2(c)(3). More specifically,

12

unions may be liable for refusing to file grievances concerning discrimination. Goodman v.

13

Lukens Steel Co.. 482 U.S. 656,669 (1987), superceded bv statute on other grounds as

14

recognized in Johnson v. Lucent Technologies Inc.. 653 F.3d 1000,1005-06 (9th Cir.

15

2011)). Unions also may be liable for acquiescing or joining in an employer’s

16

discriminatory practices. Bonilla v. Oakland Scavenger Co.. 697 F.2d 1297,1304 (9th Cir.

17

1982). The United States Supreme Court has applied these rules of union liability to other

18

federal anti-discrimination laws. 14 Penn Plaza L.L.C. v. Pvett. 556 U.S. 247,272 (2009)

19

(discussing union liability generally under federal anti-discrimination laws and applying

20

these rules specifically to the Age Discrimination in Employment Act (“ADEA”)).

21

In her Amended Complaint, Plaintiff alleges that Defendants took adverse

22

employment action against Plaintiff by refusing to file grievances alleging discrimination

23

and by joining in Management’s discriminatory practices. (Am. Compl. at 4:15-17, 9:13-

24

23,10:9-11.) Plaintiff alleges the following constitute adverse employment actions taken

25

by Management: cut hours, adverse scheduling, failure to accommodate, constructive

26

suspension, suspension, removal, and breach of grievance settlements. (Id at 4:24-25,
12

42

Case 2:ll-cv-01109-APG-CWH Document 76 Filed 06/18/12 Page 13 of 21

l

9:13-23.) Viewing the facts in the light most favorable to Plaintiff, Plaintiffhas alleged

2

sufficient facts to support a claim of adverse employment action. Management refused to

3

accommodate Plaintiff, suspended Plaintiff, and ultimately removed Plaintiff, all of which

4

constitute adverse employment actions. Similarly, Plaintiffhas pled sufficient facts to

5

support a claim that Defendants are liable for Management’s discriminatory practices.

6

Defendants refused to file grievances and joined in Management’s discriminatory practices.

7

For example, Poulos communicated with Plaintiff regarding adverse scheduling and work

8

restrictions and wrote a three-page statement to Management, which Plaintiff alleges

9

Management used in making its decision to suspend and remove Plaintiff.

10
11

b.

Because off Plaintiff's Disability

An employer takes an adverse action “because of’ the plaintiffs disability if the

12

action was motivated, even in part, by animus towards the plaintiffs disability or request

13

for accommodation. Dark v. Currv Cntv.. 451 F.3d 1078,1084-85 (9th Cir. 2006). Thus,

14

the ADA applies when the plaintiffs “disability is one factor, but not the only factor,

15

motivating an adverse employment action.” Head v. Glacier Nw. Inc.. 413 F.3d 1053,1065

16

n.63 (9th Cir. 2005) (quotation omitted). But a decision motivated by factors merely

17

related to the plaintiffs disability is not prohibited by the ADA. See Lopez v. Pac. Mar.

18

Ass’n. 657 F.3d 762, 764 (9th Cir. 2011).

19

Here, viewing the facts alleged in the light most favorable to Plaintiff, Plaintiff

20

has alleged sufficient facts to support a claim that Defendants’ refusals to file grievances

21

and involvement in Management’s discriminatory practices were motivated, at least in part,

22

by animus towards Plaintiffs disabilities or requests for accommodation. In particular,

23

Poulos removed Plaintiff as shop steward the day after Plaintiff did not attend a grievance

24

meeting because Plaintiffs legs and feet locked up severely. (Am. Compl. at 6:8-12,

25

24:15-17,19-20.) Poulos referred to Plaintiffs condition as a “stunt.” (Id. at 6:10-12.)

26

Poulos, Scoggins, and Ybarra withdrew grievances, some of which alleged discrimination.
13

43

Case 2:ll-cv-01109-APG-CWH Document 76 Filed 06/18/12 Page 14 of 21

1

fid, at 10:9-11,26:5-9,17.) Plaintiff requested an accommodation due to her medical

2

conditions, and on the same day Weyen refused to file grievances. (Id. at 27:16-23.)

3

Poulos stated that the work restrictions imposed by Management were due to Plaintiff’s

4

medical conditions and Poulos refused to file grievances opposing these work restrictions.

5

(Id. at 30:23-28,31:1 -8.) Accordingly, Plaintiff has alleged sufficient facts to support a

6

plausible disability discrimination claim under the ADA. The Court will deny Defendants’

7

motions to dismiss Plaintiffs disability discrimination claims.

8
9

2. Retaliation—Count II
To state a prima facie case of retaliation under the ADA, the plaintiff must

10

demonstrate “(1) involvement in a protected activity, (2) an adverse employment action and

11

(3) a causal link between the two.” Alvarado v. Cajun Operating Co.. 588 F.3d 1261,1269

12

(9th Cir. 2009). A plaintiff engages in a protected activity by pursuing her rights under the

13

ADA, for example, by filing union grievances and EEOC charges. Pardi v. Kaiser Found.

14

Hosps.. 389 F.3d 840, 850 (9th Cir. 2004). For purposes of an ADA retaliation claim, an

15

action constitutes an adverse employment action if it is “reasonably likely to deter

16

employees from engaging in protected activity.” Id (quotation omitted). Lastly, a casual

17

link can be inferred from circumstantial evidence, such as an employer’s knowledge and

18

temporal proximity between the protected activity and the adverse employment action.

19

Yartzoff v. Thomas. 809 F.2d 1371,1376 (9th Cir. 1987) (employer was aware of the

20

plaintiffs EEOC complaint and took adverse employment action within three months of

21

filing): see also Bell v. Clackamas Cntv.. 341 F.3d 858, 865 (9th Cir. 2003) (noting that

22

temporal proximity alone can be sufficient).

23

Plaintiff has pled sufficient facts to support a claim that she engaged in protected

24

activity by filing union grievances and EEOC charges. As discussed above, Plaintiff also

25

has alleged sufficient facts to support a claim that Management took adverse employment

26

action against Plaintiff and Defendants are liable for Management’s actions because
14

44

Case 2:ll-cv-01109-APG-CWH Document 76 Filed 06/18/12 Page 15 of 21

1

Defendants refused to file grievances on Plaintiff’s behalf and joined in Management’s

2

discriminatory practices. Lastly, Plaintiff has pled sufficient facts to infer a causal link

3

between Plaintiffs protected activity and the adverse employment action because

4

Defendants were aware of Plaintiffs EEOC charges and Management removed Plaintiff

5

fewer than three months after she filed EEOC charges. Accordingly, Plaintiff has alleged

6

sufficient facts to support a plausible retaliation claim under the ADA. The Court will deny

7

Defendants’ motions to dismiss Plaintiffs retaliation claim.

8

3. Hostile Work Environment—Count III

9

It is unsettled whether a cause of action for a hostile work environment claim

10

exists under the ADA. Brown v. City of Tucson. 336 F.3d 1181, 1190 (9th Cir. 2003).

11

Assuming without deciding that such a claim exists, courts would likely apply Title VII

12

law. See McConathv v. Dr. Pepper/Seven Up Corp.. 131 F.3d 558, 563 (5th Cir. 1998).

13

Consequently, if such a claim exists, a plaintiff must prove:

14

17

(1) that she belongs to a protected group; (2) that she was subjected to
unwelcome harassment; (3) that the harassment complained of was
based on her disability or disabilities; (4) that the harassment
complained of affected a term, condition, or privilege of employment;
and (5) that the employer knew or should have known of the
harassment and failed to take prompt, remedial action.

18

Flowers v. S. Reg’l Physician Servs. Inc.. 247 F.3d 229, 235-236 (5th Cir. 2001) (quotation

19

omitted). An “objectionable environment must be both objectively and subjectively

20

offensive, one that a reasonable person would find hostile or abusive, and one that the

21

victim in fact did perceive to be so.” Faragher v. City of Boca Raton. 524 U.S. 775, 787

22

(1998). The Court considers the totality of the circumstances in determining whether

23

conduct is sufficiently severe or pervasive. Brooks v. City of San Mateo. 229 F.3d 917,

24

923 (9th Cir. 2000). The Court considers “frequency of the discriminatory conduct; its

25

severity; whether it is physically threatening or humiliating, or a mere offensive utterance;

26

and whether it unreasonably interferes with an employee’s work performance.” Faragher.

15
16

15

45

Case 2:ll-cv-01109-APG-CWH Document 76 Filed 06/18/12 Page 16 of 21

1

524 U.S. at 787-88 (quotation omitted). However, anti-discrimination laws are not a

2

general civility code, therefore, “simple teasing, offhand comments, and isolated incidents

3

(unless extremely serious) will not amount to discriminatory changes in the terms and

4

conditions of employment.” Id. at 788 (internal citation and quotation marks omitted).

5

In her Amended Complaint, Plaintiff alleges that Poulos was openly hostile

6

towards Plaintiff every time she requested that Poulos file a grievance on her behalf, and

7

Poulos told Plaintiff that she was the only one having problems. (Am. Compl. at 11:6-8.)

8

Plaintiff has not alleged sufficient facts to demonstrate that this was more than an offensive

9

utterance. Plaintiff also alleges Poulos refused to address Management’s “continual and

10

constant mental abuse/harassment.” (Id. at 11:1-2.) After her reinstatement, Plaintiff called

11

threat assessment to report bullying from the APWU shop steward and a co-worker. (Id. at

12

36:17-20.) Three days later, Plaintiff alleges she had a mental breakdown because of the

13

abuse, after which she took vacation and sick leave to remove herself from the

14

environment. (IcL at 36:21-22.) Although Plaintiff alleges sufficient facts to demonstrate

15

that she subjectively found her work environment hostile and abusive, Plaintiff does not

16

allege specific incidents of mental abuse, harassment, or bullying sufficient for the Court to

17

evaluate whether a reasonable person would find the work environment hostile and abusive.

18

Furthermore, Plaintiff has not alleged that the mental abuse, harassment, or bullying was

19

based on her disability. Accordingly, Plaintiff has failed to plead sufficient facts to support

20

a hostile work environment claim, and the Court will grant Defendants’ motions to dismiss

21

Plaintiffs hostile work environment claim.

22
23

4. Intentional Infliction of Emotional Distress—Count VI
Defendants argue Plaintiffs intentional infliction of emotional distress (“IIED”)

24

claim does not amount to an intentional infliction tort and is preempted by § 301 of the

25

Labor Management Relations Act (“LMRA”). Plaintiff responds that Defendants’ conduct

26

was extreme and outrageous—namely, the extinguishment of her rights, collusion with
16

46

Case 2:ll-cv-01109-APG-CWH Document 76 Filed 06/18/12 Page 17 of 21

1

Management to suspend and remove Plaintiff, and refusal to mediate at the EEOC—and

2

such conduct caused emotional distress, evidenced by Plaintiffs psychological care and

3

medication. Plaintiff also argues that the Court need not interpret the Collective Bargaining

4

Agreement (“CBA”) to evaluate whether Defendant extinguished Plaintiffs rights and

5

colluded with Management.

6

To establish a claim for intentional infliction of emotional distress, a plaintiff

7

must prove: “(1) extreme and outrageous conduct with either the intention of, or reckless

8

disregard for, causing emotional distress, (2) the plaintiffs having suffered severe or

9

extreme emotional distress and (3) actual or proximate causation.” Star v. Rabello. 625

10

P.2d 90,91-92 (Nev. 1981). Extreme and outrageous conduct exceeds “all bounds of

11

decency” and is ‘‘utterly intolerable in a civilized community.” Maduike v. Agency Rent-

12

A-Car. 953 P.2d 24,26 (Nev. 1998) (quotation omitted). Persons must be expected and

13

required to tolerate occasional acts, which are inconsiderate and unkind. Id. “Liability for

14

emotional distress will not extend to ‘mere insults, indignities, threats, annoyances, petty

15

oppressions, or other trivialities.’” Candelore v. Clark Cntv. Sanitation Dist.. 975 F.2d 588,

16

591 (9th Cir. 1992) (quoting Restatement (Second) of Torts § 46 cmt. d).

17

Plaintiff argues that the same conduct that gives rise to her discrimination claims

18

forms the basis of her IIED claim. These acts, although arguably offensive, inconsiderate,

19

and unkind, do not rise to the level of extreme and outrageous such that they exceed “all

20

bounds of decency.” “Discriminatory employment practices are wrong and federal law

21

makes such conduct unlawful and provides for relief; however, the tort of intentional

22

infliction of emotional distress is not intended to reach every discrimination claim.” Alam

23

v. Reno Hilton Corp.. 819 F. Supp. 905, 911 (D. Nev. 1993). Therefore, the Court will

24

grant Defendants’ motions to dismiss Plaintiffs IIED claim.

25
26

5. Negligent Retention—Count VI
Defendants contend that because APWU officials are elected, they cannot be
17

47

Case 2:ll-cv-01109-APG-CWH Document 76 Filed 06/18/12 Page 18 of 21

1

negligently retained by the APWU. Plaintiff responds that the National APWU was

2

negligent in failing to investigate national and local officials’ discriminatory conduct of

3

which the National APWU was aware, failing to suspend officials for such conduct, and

4

retaining officials despite such conduct.

5

An employer has a general duty to use reasonable care in the retention of

6

employees to ensure that employees are fit for their positions. Hall v. SSF. Inc.. 930 P.2d

7

94,99 (Nev. 1996). The employer breaches this duty when the employer hires or retains an

8

employee that the employer knew or should have known might cause harm to others. See

9

id. at 98-99; see also Chavez v. Thomas & Betts Corp.. 396 F.3d 1088,1099 (10th Cir.

10

2005), overruled on other grounds bv Metzler v. Fed. Home Loan Bank of Topeka. 464

11

F.3d 1164,1171 n.2 (10th Cir. 2006).

12

Here, Plaintiff alleges that Defendants retained national and local officials

13

despite being aware that such officials were discriminating and otherwise causing harm to

14

Plaintiff. As such, Plaintiff has pled sufficient facts to state a claim for negligent retention.

15

Defendants have not offered support for their contention that an employer cannot

16

negligently retain an elected official. Accordingly, the Court will deny Defendants’

17

motions to dismiss Plaintiff’s negligent retention claim.

18
19

7. Conspiracy to Violate Civil Rights—Count VII
Defendants argue that Plaintiff’s conspiracy claim under 42 U.S.C. § 1985

20

should be dismissed because § 1985 is unavailable as a remedy for Title VII violations.

21

Plaintiff does not respond to this position; rather, Plaintiff argues that she has established a

22

prima facie case of conspiracy under § 1985 by circumstantial evidence.

23
24

Section 1985(3) provides a remedy for certain types of conspiracies as described
within the statute;4 it does not provide a remedy for a claim of conspiracy to violate Title

25
26

4 To state a claim for relief under § 1985(3) a plaintiff must establish that the defendant did
18

48

Case 2:ll-cv-01109-APG-CWH Document 76 Filed 06/18/12 Page 19 of 21

l

VII. Great Am. Fed. Sav. & Loan Ass’n v. Novotnv. 442 U.S. 366, 372-78 (1979),

2

superseded bv statute on other grounds as recognized in Alexander v. Gerhardt Enters..

3

Inc.. 40 F.3d 187, 191-92 (7th Cir. 1994). Title VII remedies are not available to a plaintiff

4

unless that plaintiff exhausts her administrative remedies. Id at 372-73. For example, as

5

discussed above, a plaintiff must file a claim with the EEOC before bringing suit for

6

discrimination. If a plaintiff could assert a Title VII violation through § 1985, then the

7

plaintiff could circumvent the administrative requirements set forth in Title VII. Id at 375-

8

76. Thus, “deprivation of a right created by Title VII cannot be the basis for a cause of

9

action under § 1985(3).” Id. at 378.

10

Because the same administrative requirements set forth in Title VII apply to the

11

ADA under 42 U.S.C. § 12117(a), the Supreme Court's reasoning in Novotnv applies to a

12

claim of conspiracy to violate the ADA. Adler v. I & M Rail Link. L.L.C.. 13 F. Supp. 2d

13

912, 941-43 (N.D. Iowa 1998) (applying Novotnv to claims of conspiracy to violate the

14

ADA and ADEA), abrogated on other grounds bv Cossette v. Minn. Power & Light 188

15

F.3d 964,970 n.4 (8th Cir. 1999); Jones v. Baskin. Flaherty. Elliot and Mannino. P.C.. 738

16

F. Supp. 937, 940-41 (W.D. Pa. 1989), afiPd, 897 F.2d 522 (3d Cir.), cert, denied. 498 U.S.

17

811 (1990) (applying Novotny to a claim of conspiracy to violate the ADEA); Brownfield

18

v. Yellow Freight Svs.. No. 98-15775,1999 WL 439310, at *1 (9th Cir. June 17,1999)

19

(applying Novotny to claims of conspiracy to violate Title VII and the ADA). Therefore, §

20

1985(3) does not provide a remedy for a claim of conspiracy to violate the ADA, and the

21

Court will grant Defendants’ motions to dismiss Plaintiffs § 1985 claim.

22
23
24
25
26

thepti^os^ofdq^i'vin&lk'he^direSly'or in^rectty/a^y^ereorforclass'ofp^erson/of
the equal protection of me laws, or of equal privileges and immunities under the laws.’
It must then assert that one or more of the conspirators (3) did, or caused to be done,
‘any act in furtherance of the object of (the) conspiracy, whereby another was (4a)
‘injured in hisperson or property or (4b) ‘deprived ofhaving and exercising any nght
or privilege of a citizen of the united States.
Griffin v. Breckenridege. 403 U.S. 88, 102-103 (1971).
19

49

Case 2:ll-cv-01109-APG~CWH Document 76 Filed 06/18/12 Page 20 of 21

l

Section 1986 imposes liability on persons who have knowledge of an impending

2

violation of § 1985 and have power to prevent the violation but neglect or refuse to do so.5

3

Karim-Panahi. 839 F.2d at 626. “A claim can be stated under section 1986 only if the

4

complaint contains a valid claim under section 1985.” Id. Because Plaintiff fails to state a

5

valid claim under § 1985, the Court will grant Defendants’ motions to dismiss Plaintiffs

6

§ 1986 claim.6

7
8

9

8. Vicarious Liability
Defendants argue the National APWU is not vicariously liable for the Local
APWU’s conduct simply by virtue of their affiliation, and Plaintiff’s general statements

10

that the National APWU business agents were agents of the Local APWU are insufficient

11

to state a claim of vicarious liability. Plaintiff responds that she has alleged facts that

12

demonstrate that the National APWU was making decisions for the Local APWU. For

13

example, the National APWU regularly advised the Local APWU officials, the National

14

APWU colluded with the Local APWU officials, and the National APWU withdrew

15

grievances.

16

Courts use principles of common-law agency to determine whether an

17

international union is vicariously liable for the actions of its local subsidiary. Carbon Fuel

18

Co. v. United Mine Workers of Am.. 444 U.S. 212, 216-217 (1979).

19
20

21
22
23

24
25

26

5 42U.S.C. § 1986 provides:
Every person who, having knowledge that any of the wrongs conspired to be done, and
mentioned in section 1985 of this title, are about to be committed, and having power
to prevent or aid in preventing the commission of the same, neglects or refuses so to
do, if such wrongfiu act be committed, shall be liable to the party injured, or his legal
representatives, Tor all damages caused by such wrongful act, which such person oy
reasonable diligence could have prevented....
6 Plaintiff also alleges that Defendants violated 42 U.S.C. § 1981 and § 1983; however,
neither statute applies to this action. Section 1981 prohibits race discrimination in the making and
enforcing of contracts. Section 1983 prohibits violations of rights secured by the Constitution by
persons acting under color of law. Plaintiff does not allege race discrimination, nor does Plaintiff
allege Defendants acted under color of law. The Court will construe Plaintiffs conspiracy claim as
a claim for violations of § 1985 and § 1986 only.
20

50

Case 2:ll-cv-01109-APG-CWH Document 76 Filed 06/18/12 Page 21 of 21

l
2
3

4

Thus, if the local engages in illegal conduct in furtherance of its role as
an agent of the international, the international will be liable for the
local’s actions.... However, if the local exercises considerable
autonomy in conducting its affairs, it cannot be regarded as an ageentof
the international, and the international accordingly cannot be held
liable under an agency theory for the local’s actions.

5

Laughon v. Int’l Alliance of Theatrical Stage Emps.. 248 F.3d 931.935 (9th Cir. 20011. An

6

international union may be liable for a local subsidiary if the international union

7

“instigated, supported, ratified or encouraged the [l]ocal’s activities.” Moore v. Local

8

Union 569 of Int’l Bhd. of Elec. Workers. 989 F.2d 1534, 1543 (9th Cir. 1993).

9

Plaintiff has sufficiently pled facts that show the National APWU instigated,

10

supported, ratified, or encouraged the Local APWU’s activities. As discussed above, the

11

National APWU was involved in withdrawing grievances, refusing to file grievances, and

12

disciplining Plaintiff. Therefore, the Court will deny the National APWU’s Motion to

13

Dismiss Plaintiffs vicarious liability claim.

14

IH. CONCLUSION

15

IT IS THEREFORE ORDERED that Defendant APWU National AFL-CIO’s

16

Motion to Dismiss Amended Complaint (Doc. #60) and Defendant Local APWU #7156’s

17

Motion to Dismiss Amended Complaint (Doc. #57) are hereby GRANTED in part and

18

DENIED in part. The Motions are GRANTED as to Plaintiffs claims of hostile work

19

environment, intentional infliction of emotional distress, and violations of 42 U.S.C. § 1985

20

and § 1986. The Motions are DENIED in all other respects.

21
22

DATED: June 18,2012

23

24

PHILIP M. PRO
United States District Judge

25

26
21

51

